HHS/OIG - Audit,"Audit of Administrative Costs Claimed Under Parts
A&B of the Health Insurance for the Aged and Disabled Programs -- AdminaStar
Federal, Inc.
Indianapolis, Indiana"(A-05-01-00023)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Parts A & B of the
Health Insurance for the Aged and Disabled Programs -- AdminaStar Federal,
Inc. Indianapolis, Indiana," (A-05-01-00023)
January 17, 2002
Complete Text
of Report is available in PDF format (1.6 mb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit covered costs claimed by AdminaStar Federal (AdminaStar) on final
administrative cost proposals for Fiscal Years 1998 and 1999.  Costs claimed
totaled $193,455,170: $81,763,259 for Part A, $71,399,257 for Part B, and $40,292,654
for durable medical equipment regional carrier (DMERC) operations.  Of
the total claimed, we recommended a financial adjustment of $4,694,863: $2,171,529
for Part A, $1,602,931 for Part B, and $920,403 for DMERC operations.  We
also found that information to support the prior approval of leases and the
volume of claims used to compute complementary credits was not available.  We
recommended that AdminaStar provide the necessary documentation to the Centers
for Medicare and Medicaid Services for review.  Adjustments to the Final
Administrative Cost Proposals should be made if necessary.